             Office of Inspector General
                                 Advisory Report




       Virgin Islands National Park Service
Review of Purchase Cards and Property Disposition

Report No. VI-EV-NPS-0001-2008                     June 2009   1
   The Department of the Interior issues the
    Integrated Charge Card (purchase card) to
    Virgin Islands National Park Services (NPS)
    employees for purchases such as:
    ◦ Official Travel
    ◦ Fueling of government vehicles
    ◦ Other necessary job-related purchases

   These cardholders have the authority to
    make purchases of up to $3,000 per
    transaction.

                                                  1
   Over-issuance of charge cards
   Purchases lack authorization and justification
   Purchases are not reconciled
   Violation of the split-purchase rule
   Personal property not labeled or inventoried
   Critical job vacancies
   Inadequate storage methods




                                                     2
   Division heads, who are responsible for
    reviewing cardholder applications, have
    issued charge cards to approximately 70
    percent of NPS employees.

    ◦ Nothing guarantees that the majority of NPS
      employees have an appropriate need for purchase
      authority.

    ◦ There is little to no assurance that only authorized,
      allowable, and necessary purchases are made.


                                                              3
   We reviewed about $600,000 in purchase
    card transactions made by 16 cardholders
    from fiscal years 2006 to 2008.

   We found purchases were made routinely
    without proper authorization or
    justification.

   For example….


                                               4
◦ An NPS employee purchased five all-in-one printers and a
  flat screen television, collectively worth almost $4,000,
  without requisitions, supervisory approval, or justifiable
  need.

◦ An NPS employee purchased a stove and household
  supplies, totaling $1,800, for NPS housing without
  requisitions, supervisory approval, or justifiable need.




                                                               5
   Not only do approving officials certify purchases
    without requiring supporting documents from
    cardholders, the Agency/Organization Program
    Coordinator has failed to:

    Conduct routine charge card reviews.

    Ensure that charge card statements, supporting
     documents and annual training certificates are
     centrally filed and properly examined.



                                                        6
   Because purchases are not reconciled with
    invoices, there is no guarantee that items
    ordered and purchased with NPS funds are
    received.

   For example
     A cardholder purchased eight security cameras using NPS
     funds. NPS was unaware of the fact that only seven cameras
     had been installed, until our evaluation noticed the missing
     property nearly 4 months after their initial installation. This
     mistake was not caught, because the invoice was never
     reconciled.
                                                                       7
   The Departmental annual charge card training
    states that cardholders are prohibited from:

    Making recurring purchases from the same vendor
    that exceed $3,000 ($2,500 for services and $2,000
    for construction) in a single year if it is known at the
    beginning of the fiscal year that the total
    requirements for the year will be in excess of $3,000.




                                                               8
   7 of the 16 cardholders we reviewed violated
    this split-purchase rule.

   The annual charge card training also states that
    “purposely splitting a purchase may result in the
    loss of purchasing authority and disciplinary
    action.”

   NPS has failed to enforce this rule.


                                                        9
   To ensure appropriate accountability,
    property purchased by NPS cardholders
    must be:

    ◦ Physically identified, tagged and labeled

    ◦ Accounted for, and recorded in a formal inventory
      system



                                                          10
   According to Section 5.3 of the Personal
    Property Management Handbook #44,
    cardholders must:

     “…coordinate with the Receiving Officer to ensure
     that all p
              property
                 p y items are affixed with a U.S.
     Government label, and all capitalized and sensitive
     property items are affixed with a U.S. Government
     label and an NPS barcode label and entered into the
     property system within five working days upon
     receipt.”


                                                           11
   We conducted a physical inventory of 378
    items; identification labels were not affixed
    to all items.

   For example:
     We found an unopened box without an identification label
     that contained a television. This box was sitting on the floor
     in the Training Room located in the Maintenance Building.



                                                                      12
   According to Section 5 of the Personal Property
    Management Handbook #44 NPS is required to
    formally document the receipt of all personal
    property acquired through purchase card
    transactions.

   Not all property purchased by cardholders could
    be located and traced because it was not always
    documented or recorded in an inventory system.

   For example…

                                                      13
► 6 unidentified cameras installed around the outside of
  the Maintenance Building are not documented or
  recorded in the division’s existing inventory system.

► 29 fans purchased for NPS Housing by the Housing
  Management Assistant could not be identified, located,
  or traced because no division inventory system exists.




                                                           14
   Personal property that is not properly labeled
    or formally documented in an inventory
    system is susceptible to loss or theft.




                                                     15
   Below are examples of unlabeled property we
    found at various NPS locations, that appear to
    be untouched since purchase.

                     It is unknown why NPS is not currently using
                     these items that appear to be brand new.




                                                                    16
   The following positions are critical to
    maintaining efficient and secure inventory
    systems:
    ◦ Accountability Officer
    ◦ Receiving Officer
    ◦ Custodial Officer


   These positions within NPS are all currently
    vacant.



                                                   17
   Lack of storage space has resulted in
    property being abandoned outdoors where it
    is susceptible not only to harsh weather
    elements but also theft.




                                                 18
   While it appears that these items have been
    left for disposal – they are, in fact, currently
    functioning. This illustrates how NPS has
    chosen to store its purchases.




                                                       19
 NPS is currently extremely vulnerable to
       charge card misuse and theft.

 The following are six suggestions we strongly
believe should be implemented to circumvent the
future possibility of charge card misuse and theft.




                                                      20
1.   Evaluate and adjust the number of cardholders with
     purchase authority to a maximum of two per division.

2.   Require all cardholders to become familiar with
     procedures governing the use of charge cards,
     including the maintenance of all records for the
     required time periods.

3.   Require all employees to become familiar with and
     implement procedures found in the Personal Property
     Management Handbook #44.



                                                            21
4.   Hold reviewing officials and the Agency/Organization
     Program Coordinator responsible for performing
     adequate and timely reviews.

5.   Require that complete and accurate formal and
     informal inventory lists be compiled for each division.
     For all items purchased, receiving reports should be
     prepared and submitted to the employee responsible
     for the property.

6.   Appoint employees to critical positions required for
     maintaining efficient personal property inventory
     systems.

                                                               22
 
                                        


             Report Fraud, Waste, Abuse, 
                and Mismanagement
                                          
                   Fraud, waste, and abuse in government 
                                          
                   concern everyone.   Office of Inspector  
                   General staff, Departmental employees, 
                     and the general public.  We actively 
                   solicit allegations of any inefficient and 
                     wastef ul practices, fraud, and abuse
                   related to Departmental or Insular Area 
                  programs and operations.  You can report 
                       allegations to us in several ways.  
                                        
                                        
                                            
                                        
                                        
        By  Mail :         U.S. Department of the Interior   
                           Office of Inspector General   
                           Mail Stop 4428 MIB  
                           1849 C  Street, NW  
                           Washington, D.C. 20240  
          
        By Phone :         24‐Hour Toll Free               800‐424‐5081 
                           Washington Metro Area           703‐487‐5435 
          
        By Fax:            703‐487‐5402 
          
        By Internet :      www. doioig.gov /hotline
     
